Department of Health and Human Services
                   OFFICE OF
              INSPECTOR GENERAL




   NEW HAMPSHIRE DID NOT
   ALWAYS CORRECTLY CLAIM
    MEDICAID PAYMENTS FOR
        SCHOOL-BASED
   TRANSPORTATION SERVICES


  Inquiries about this report may be addressed to the Office of Public Affairs at
                           Public.Affairs@oig.hhs.gov.




                                                   Gloria L. Jarmon
                                                Deputy Inspector General

                                                      October 2012
                                                      A-01-11-00008
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to certain low-income individuals and individuals with disabilities. The
Federal and State Governments jointly fund and administer the Medicaid program. At the
Federal level, the Centers for Medicare & Medicaid Services (CMS) administers the program.
Each State administers its Medicaid program in accordance with a CMS-approved State plan.
Although the State has considerable flexibility in designing and operating its Medicaid program,
it must comply with applicable Federal requirements. In New Hampshire, the Department of
Health and Human Services, Office of Medicaid Business and Policy (State agency), administers
the Medicaid program.

Section 411(k)(13) of the Medicare Catastrophic Coverage Act of 1988 (P.L. No. 100-360)
amended section 1903(c) of the Act to permit Medicaid payment for medical services provided
to children under the Individuals with Disabilities Education Act through a child’s individualized
education plan (IEP). Covered services may include, but are not limited to, physical therapy,
occupational therapy, speech pathology/therapy services, psychological counseling, nursing, and
transportation services.

New Hampshire’s Medicaid to Schools Program allows school administrative units (SAU) to
receive Federal reimbursement through the State agency for medically related services provided
pursuant to a child’s IEP. During calendar years 2006 through 2009, the State agency claimed
$28,611,539 ($15,214,592 Federal share) for Medicaid payments for school-based transportation
services made to New Hampshire SAUs. We limited our review to 227,553 claim line items
(items) for transportation services, totaling $15,766,315 ($8,375,998 Federal share), that we
identified as having a high risk for overpayment. We reviewed a random sample of 115 items
for transportation services totaling $302,900 ($153,133 Federal share).

OBJECTIVE

Our objective was to determine whether the State agency claimed Federal Medicaid
reimbursement for school-based transportation services in accordance with Federal and State
requirements.

SUMMARY OF FINDINGS

The State agency did not always claim Federal Medicaid reimbursement for school-based
transportation services submitted by SAUs in accordance with Federal and State requirements.
Of the 115 items in our random sample, 37 items met Federal and State requirements. However,
the remaining 78 items had 1 or more school-based transportation services, totaling $272,327
($136,397 Federal share), that were not reimbursable. Based on our results, we estimated that
the State agency improperly claimed $5,086,636 ($2,695,809 Federal share) for Medicaid
payments made to SAUs.



                                                i
The deficiencies occurred because the State agency issued incorrect guidance to the SAUs based
on its misunderstanding of Federal requirements. In addition, the State agency did not
adequately monitor the claims for Medicaid school-based transportation services submitted by
SAUs.

RECOMMENDATIONS

We recommend that the State agency:

   •   refund $2,695,809 to the Federal Government,

   •   work with CMS to review Medicaid payments made to SAUs after our audit period and
       refund any overpayments,

   •   strengthen its oversight of the New Hampshire Medicaid to Schools program to ensure
       that claims for school-based transportation services comply with Federal and State
       requirements, and

   •   issue new guidance on school-based transportation that is consistent with Federal
       requirements.

STATE AGENCY COMMENTS AND
OFFICE OF INSPECTOR GENERAL RESPONSE

In written comments on our draft report, the State agency concurred in part and disagreed in part
with our findings and recommendations. Specifically, the State agency agreed in general with
our recommendations to strengthen its oversight of the New Hampshire Medicaid to Schools
program and to issue new guidance on school-based transportation that is consistent with Federal
requirements. However, the State agency disagreed with our findings for 11 of 78 items that we
identified as having 1 or more transportation services that were not reimbursable. The State
agency did not comment on the remaining 67 items, but stated that it reserves the right to provide
additional documentation in the future.

In response to the State agency comments, we modified our findings for nine items and adjusted
our monetary recommendation accordingly. However, we maintain that the State agency did not
always claim Federal Medicaid reimbursement for school-based transportation services
submitted by the SAUs in accordance with Federal and State requirements.

The State agency’s comments are included in their entirety as Appendix C.




                                                ii
                                                  TABLE OF CONTENTS

                                                                                                                          Page

INTRODUCTION..............................................................................................................1

          BACKGROUND .....................................................................................................1
              Medicaid Program ........................................................................................1
              Medicaid Coverage of School-Based Transportation Services ...................1
              New Hampshire Medicaid to Schools Program ...........................................1
              State Guidance for Billing Medicaid School-Based Services......................2

          OBJECTIVE, SCOPE, AND METHODOLOGY ...................................................2
               Objective ......................................................................................................2
               Scope ............................................................................................................3
               Methodology ................................................................................................3

FINDINGS AND RECOMMENDATIONS ....................................................................4

          RELATED MEDICAL SERVICES NOT PROVIDED ..........................................5

          SCHOOL-BASED TRANSPORTATION SERVICES OVERBILLED ................5

          SCHOOL-BASED TRANSPORTATION SERVICES
            NOT ADEQUATELY DOCUMENTED ............................................................5

          SCHOOL-BASED TRANSPORTATION SERVICES NOT PROVIDED ............6

          ESTIMATE OF THE UNALLOWABLE AMOUNT.............................................6

          INCORRECT GUIDANCE AND INADEQUATE OVERSIGHT .........................6

          RECOMMENDATIONS .........................................................................................7

          STATE AGENCY COMMENTS AND
            OFFICE OF INSPECTOR GENERAL RESPONSE ..........................................7
                General Audit Concerns ...............................................................................8
                Sampling Concerns ......................................................................................9
                Concerns With Individual Findings ...........................................................10

APPENDIXES

          A: SAMPLE DESIGN AND METHODOLOGY

          B: SAMPLE RESULTS AND ESTIMATES

          C: STATE AGENCY COMMENTS
                                                                    iii
                                                INTRODUCTION

BACKGROUND

Medicaid Program

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to certain low-income individuals and individuals with disabilities. The
Federal and State Governments jointly fund and administer the Medicaid program. At the
Federal level, the Centers for Medicare & Medicaid Services (CMS) administers the program.
Each State administers its Medicaid program in accordance with a CMS-approved State plan.
Although the State has considerable flexibility in designing and operating its Medicaid program,
it must comply with applicable Federal requirements.

Medicaid Coverage of School-Based Transportation Services

Section 411(k)(13) of the Medicare Catastrophic Coverage Act of 1988 (P.L. No. 100-360)
amended section 1903(c) of the Act to permit Medicaid payment for medical services provided
to children under the Individuals with Disabilities Education Act (IDEA) (originally enacted as
P.L. No. 91-230 in 1970) through a child’s individualized education plan (IEP).

Federal and State rules require that school-based transportation services be (1) fully documented,
(2) actually furnished, (3) documented in the child’s IEP, and (4) provided to obtain a Medicaid-
covered service (other than transportation).

In August 1997, CMS issued a guide entitled Medicaid and School Health: A Technical
Assistance Guide (technical guide). According to the technical guide, school-based health
services included in a child’s IEP may be covered if all relevant statutory and regulatory
requirements are met. In addition, the technical guide provides that a State may cover services
included in a child’s IEP as long as (1) the services are listed in section 1905(a) of the Act and
are medically necessary; (2) all Federal and State regulations are followed, including those
specifying provider qualifications; and (3) the services are included in the State plan or available
under the Early and Periodic Screening, Diagnostic, and Treatment Medicaid benefit. Covered
services may include, but are not limited to, physical therapy, occupational therapy, speech
pathology/therapy services, psychological counseling, nursing, and transportation services.

New Hampshire Medicaid to Schools Program

In New Hampshire, the Department of Health and Human Services, Office of Medicaid Business
and Policy (State agency), administers the Medicaid program. New Hampshire’s Medicaid to
Schools Program allows school administrative units (SAU) 1 to receive Federal reimbursement
through the State agency for medically related services provided pursuant to a child’s IEP.



1
    An SAU is a legally organized administrative body responsible for one or more school districts.


                                                           1
The State agency reimbursed SAUs for only the Federal share of Medicaid expenditures; the
SAUs were responsible for the State share. 2 In addition, SAUs were reimbursed for the lesser of
the actual cost or the rate established by the State agency for covered services. The Federal
Government pays its share of State Medicaid expenditures, including claims for school-based
health services, according to a formula established in section 1905(b) of the Act. That share is
known as the Federal medical assistance percentage (FMAP). The FMAP in New Hampshire
ranged from 50 percent to approximately 62 percent during our audit period.

State Guidance for Billing Medicaid School-Based Services

The primary State guidance for administering and operating the school-based health program is
the New Hampshire Medicaid to Schools Program Manual (State Manual). According to the
State Manual, to be eligible for this program, a student must be (1) identified as having an
educational disability in his or her IEP, (2) younger than 22 years of age, (3) eligible for
Medicaid, and (4) served by an SAU that is enrolled as a Medicaid provider. Covered services
under the Medicaid to Schools program include:

    •   medical evaluation;

    •   nursing services;

    •   occupational and physical therapy;

    •   psychiatric, psychological, and mental health services;

    •   speech, language, and hearing services;

    •   rehabilitative assistance;

    •   vision services; and

    •   transportation services.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the State agency claimed Federal Medicaid
reimbursement for school-based transportation services in accordance with Federal and State
requirements.




2
  The State’s share of the Medicaid payments consisted of certified public expenditures. These expenditures
represented funds that cities and towns had provided for school-based services.

                                                         2
Scope

We reviewed Medicaid school-based transportation services that were submitted by
New Hampshire SAUs and claimed by the State agency for Federal reimbursement on
Form CMS-64, Quarterly Medicaid Statement of Expenditures for the Medical Assistance
Program. The State agency claimed $28,611,539 ($15,214,592 Federal share) 3 for Medicaid
payments for transportation services made to the SAUs during calendar years 2006 through
2009. We limited our review to 227,553 claim line items (items) for transportation services,
totaling $15,766,315 ($8,375,998 Federal share), that we identified as having a high risk for
overpayment. Specifically, we limited our review by performing a data match to identify and
eliminate transportation services that had another Medicaid-covered medical service on the same
day.

Our objective did not require an understanding or assessment of the complete internal control
structures at the State agency or the SAUs. Rather, we limited our review to those controls that
were significant to the objective of our audit.

We performed our fieldwork at the State agency in Concord, New Hampshire, and at selected
SAUs from June 2011 through March 2012.

Methodology

To accomplish our audit objective, we:

    •   reviewed applicable Federal and State laws, regulations, and guidance and the CMS-
        approved State plan;

    •   interviewed officials from CMS, the State agency, and the SAUs;

    •   obtained a computer-generated file from the Medicaid Management Information System
        containing all Medicaid school-based health claims submitted by the State agency with
        claim paid dates from January 2006 through December 2009;

    •   evaluated the file to identify 636,838 items for Medicaid school-based transportation
        services totaling $28,611,539 ($15,214,592 Federal share);

    •   identified a sampling frame of 227,553 items for Medicaid school-based transportation
        services having a high risk for overpayment totaling $15,766,315 ($8,375,998 Federal
        share), as described in Appendix A;

    •   selected a stratified random sample of 115 of the 227,553 items (Appendix A);




3
 We previously audited Medicaid payments for transportation services made to the Manchester SAU during
calendar years 2006 through 2008 under report number A-01-10-00014.

                                                      3
       •   analyzed service logs, IEPs, and other documentation for each of the 115 items to
           determine whether each was allowable and accurate in accordance with Federal and State
           requirements; and

       •   estimated the total overpayments and the Federal share of these overpayments based on
           our sample results (Appendix B).

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                                  FINDINGS AND RECOMMENDATIONS

The State agency did not always claim Federal Medicaid reimbursement for school-based
transportation services submitted by SAUs in accordance with Federal and State requirements.
Of the 115 items in our random sample, 37 items met Federal and State requirements. However,
the remaining 78 items had 1 or more school-based transportation services, totaling $272,327
($136,397 Federal share), that were not reimbursable.

Specifically, we found items with the following deficiencies: 4

                          Results of Review                                  • For 63 items, the State
                                                                         agency claimed Federal
                    Allowable
                                                                         reimbursement for transportation
                       30%                                               services for which the documentation
                                                      Medicaid
                                                     Services Not        did not support that the students had
                                                      Provided           received another medical service on
            Transport.                                   50%             the same day.
           Services Not
            Provided
               5%                                                            • For 11 items, the State
          Not                                                            agency claimed Federal
       Adequately                                                        reimbursement for transportation
       Documented         Overbilled
          6%
                                                                         services provided by SAUs that were
                             9%
                                                                         overbilled.

       •   For seven items, the State agency claimed Federal reimbursement for transportation
           services that did not meet Federal documentation requirements.

       •   For six items, the State agency claimed Federal reimbursement for school-based
           transportation services that were not provided.



4
    The total exceeds 78 because 8 of the 78 items contained more than 1 deficiency.


                                                           4
Based on our results, we estimated that the State agency improperly claimed $5,086,636
($2,695,809 Federal share) 5 for Medicaid payments made to SAUs.

RELATED MEDICAL SERVICES NOT PROVIDED

Pursuant to Federal regulations (42 CFR § 440.170) and the New Hampshire State plan,
Attachment 3.1-A, page 9-a, Medicaid reimbursement is available for the transportation of
beneficiaries to and from necessary medical care. Pursuant to CMS’s technical guide, Medicaid
will reimburse states for transportation to school-based services for children under IDEA when
(1) the child receives transportation to obtain a Medicaid-covered service (other than
transportation) and (2) both the Medicaid-covered service and the need for transportation are
included in the child’s IEP. Moreover, a CMS letter to State Medicaid Directors, dated May 21,
1999 (CMS letter), states that “transportation to and from school may be claimed as a Medicaid
service when the child receives a medical service in school on a particular day and when
transportation is specifically listed in the IEP as a required service.” The CMS letter also states
that the cost of transporting a child to school on a regular school bus shared with nondisabled
children should not be billed to Medicaid.

For 63 of the 115 items in our sample, the State agency claimed Federal reimbursement for
transportation services, but the documentation did not support that the students had received
another medical service on the same day. For example, an SAU requested reimbursement from
the State agency for a full week of bus rides provided to a student, but the SAU indicated that it
could not provide service logs to support that the student received a covered Medicaid service at
school on any of those days.

SCHOOL-BASED TRANSPORTATION SERVICES OVERBILLED

Section 1903 of the Act limits Federal reimbursement of medical assistance costs to expenditures
made by the States. Pursuant to the CMS State Medicaid Manual (chapter 2, section 2497.1),
Federal reimbursement “is available only for allowable actual expenditures made ….”

For 11 of the 115 items in our sample, the State agency claimed Federal reimbursement for
school-based transportation services that were overbilled by the SAUs. Specifically, the SAUs
calculated costs based on incorrect mileage or billed costs that exceeded the amount detailed in
the supporting documentation. For example, an SAU requested reimbursement of $137 per day
from the State agency, but the invoice from the bus provider indicated that the actual cost of the
transportation services provided to the student was $75 per day. Because the transportation
service was otherwise allowable, we calculated a partial disallowance based on the difference
between the cost of the service and the claimed amount.

SCHOOL-BASED TRANSPORTATION SERVICES
NOT ADEQUATELY DOCUMENTED

Pursuant to 2 CFR part 225, App. A, § C.1 (formerly Office of Management and Budget Circular
A-87, Attach. A, § C.1), costs must be documented adequately to be allowable under Federal
5
    This estimated amount is based on the full disallowance of 59 items and the partial disallowance of 19 items.

                                                            5
awards. States are required, under 42 CFR § 431.17(b)(2), to maintain fiscal records necessary
for reporting and accountability of their Medicaid program. Furthermore, the CMS letter states
that documentation for each transportation service must be maintained.

For 7 of the 115 items in our sample, the State agency claimed Federal reimbursement for
school-based transportation services that did not meet Federal documentation requirements. For
these claims, some documentation existed, such as IEPs and progress notes, but the available
documentation did not support the cost of transportation services that were furnished to the
students. For example, an SAU provided an IEP to demonstrate that a student was scheduled to
receive speech services twice a week. However, the SAU did not provide invoices or trip logs
from the bus provider that confirmed the cost of the claimed transportation services. Therefore,
the transportation services were not Medicaid reimbursable.

SCHOOL-BASED TRANSPORTATION SERVICES NOT PROVIDED

Section 1902(a)(27) of the Act requires that States claiming Federal Medicaid funding must
document services provided. Pursuant to 42 CFR § 455.1(a)(2), States are required to have a
method for verifying whether services reimbursed by Medicaid were furnished.

For 6 of the 115 items in our sample, the State agency claimed Federal reimbursement for
school-based transportation services and had no documentation to support that services were
actually provided. Claims for transportation services were submitted for days when the students
were absent from school, or school was not in session and the students would not have received
transportation to school. For example, the SAU requested reimbursement from the State agency
for bus rides provided to a student on a particular day, but the attendance record showed that the
student did not attend school on that day.

ESTIMATE OF THE UNALLOWABLE AMOUNT

Of the 115 items in our random sample, 78 items had 1 or more transportation services, totaling
$272,327 ($136,397 Federal share), that were not reimbursable. Based on our sample results, we
estimated that the State agency improperly claimed $5,086,636 ($2,695,809 Federal share) for
Medicaid payments made to SAUs during our January 1, 2006, through December 31, 2009,
audit period (see Appendix B).

INCORRECT GUIDANCE AND INADEQUATE OVERSIGHT

The deficiencies occurred because the State agency issued guidance to the SAUs based on its
misunderstanding of Federal requirements. Specifically, State agency officials informed us that
they believed the CMS letter clarified that transportation in a specialized vehicle to and from
school is a stand-alone covered service and that another medical service is not required on the
same day. As a result of this misunderstanding, the State agency issued policy memorandums to
SAUs dated June 24, 1999, and August 15, 2000, stating that all specialized transportation is
reimbursable by Medicaid, regardless of whether a student received another Medicaid-covered
service on the same day.



                                                6
In addition, the State agency did not adequately monitor the claims for Medicaid school-based
transportation services submitted by SAUs. Although the State agency used an internal auditor
to review claims submitted by the SAUs, these reviews were insufficient to detect and prevent
unallowable claims for school-based transportation services from being paid.

RECOMMENDATIONS

We recommend that the State agency:

   •   refund $2,695,809 to the Federal Government,

   •   work with CMS to review Medicaid payments made to SAUs after our audit period and
       refund any overpayments,

   •   strengthen its oversight of the New Hampshire Medicaid to Schools program to ensure
       that claims for school-based transportation services comply with Federal and State
       requirements, and

   •   issue new guidance on school-based transportation that is consistent with Federal
       requirements.

STATE AGENCY COMMENTS AND
OFFICE OF INSPECTOR GENERAL RESPONSE

In written comments on our draft report, the State agency concurred in part and disagreed in part
with our findings and recommendations. Specifically, the State agency agreed in general with
our recommendations to strengthen its oversight of the New Hampshire Medicaid to Schools
program and to issue new guidance on school-based transportation that is consistent with Federal
requirements. However, the State agency disagreed with our sampling methodology for 1 item
and disagreed with our findings for 10 of the 78 items that we identified as having 1 or more
transportation services that were not reimbursable. Although the State agency did not
specifically comment on the remaining 67 items, it stated that it continues to locate and review
relevant documentation of services and that it reserves the right to provide additional
documentation in the future.

The State agency stated that it is in the process of changing its administrative rules and amending
its advice to the SAUs to reflect the requirement that a Medicaid service is required on a
particular day to bill Medicaid for transportation services. In regard to decreasing billing errors,
the State agency stated that certain SAUs are developing an improved billing system and that it
will continue an ongoing audit review and education process. We commend the State agency for
the steps it is taking to strengthen its oversight of the New Hampshire Medicaid to Schools
program.

In response to the State agency comments, we modified our findings for nine items and adjusted
our monetary recommendation as appropriate. However, we maintain that the State agency did
not always claim Federal Medicaid reimbursement for school-based transportation services

                                                 7
submitted by the SAUs in accordance with Federal and State requirements, as reflected in our
modified recommendations.

The State agency’s comments are included as Appendix C. We redacted personally identifiable
information from the State agency’s comments. In addition, we excluded 10 attachments
totaling 389 pages that also contained personally identifiable information.

The following is a summary of the State agency’s comments on the specific findings described in
our draft report and our response to those comments.

General Audit Concerns

State Agency Comments

The State agency noted that we had previously identified the issue pertaining to transportation
services billed on days when another Medicaid-covered service was not provided in our review
of Medicaid payments for school-based services made to Manchester, New Hampshire (report
number A-01-10-00014). The State agency stated that our current review does not further the
Office of Inspector General’s (OIG) mission to identify errors and to create greater efficiencies
and economies in the Medicaid program.

The State agency also expressed concern with the audit design, “which consisted of a
combination of a 100% review of two school districts (stratum 1) and a representative sample of
the rest of the State (stratums 2 &3).” The State agency stated that significant challenges exist
“both in responding to the audit and in the equitable determination of responsibility for
repayment, if any, as between the State and the several school districts, particularly for strata two
and three claims.” Specifically:

   •   The State agency noted that responding to the audit findings was a challenge because
       locating student records was a time-consuming and intensive process. Despite focusing
       its efforts on the review of strata 2 and 3, the State agency stated that it did not have
       sufficient time and resources to complete a detailed review. The State agency, therefore,
       is retrieving additional documentation to support sample items in strata 2 and 3 and
       would like the opportunity to conduct a separate review of stratum 1.

   •   The State agency stated that it will be difficult to equitably determine each SAU’s
       responsibility for any repayments based on the extrapolation, because it will have to seek
       repayment from SAUs not sampled in the audit. Furthermore, the State agency stated
       that the errors pertaining to related medical services not provided were attributable to
       incorrect guidance issued by the State agency, but the billing errors were attributable to
       calculation errors by the individual SAUs.

Office of Inspector General Response

We disagree that our review did not further OIG’s mission. Specifically, our review of school-
based transportation services in Manchester, New Hampshire, indicated the need to examine

                                                  8
similar services statewide. The statewide review provides evidence that errors have occurred
across multiple SAUs and, therefore, remedies must be directed statewide, not at one or two
SAUs. Determining the scope of errors through these two audits furthers our mission to promote
efficiency.

Regarding the State agency’s efforts to retrieve additional documentation and to review
stratum 1 separately, we understand that the collection and analysis of documentation for this
type of review can be a time-consuming process, and we acknowledge the State agency’s right to
provide additional documentation to CMS after we have issued our final report.

The Medicaid payments for school-based transportation services that we reviewed were claimed
for Federal reimbursement by the State agency. Therefore, we audited the State agency’s claims
for Medicaid reimbursement and not the payments that the State agency made to the SAUs. Our
methodology does not obligate the State agency to apportion liability to any or all SAUs or to
seek repayment from them. These decisions are the State agency’s.

Sampling Concerns

State Agency Comments

The State agency stated that one randomly selected item should be eliminated from stratum 3 and
moved to stratum 1. Stratum 1 consisted of a 100-percent review of all 15 line items with a paid
amount of $15,000 or more, and stratum 3 was an extrapolation of all items billed for multiple
dates of service. The State agency noted that an overwhelming portion of the claimed amounts
in stratum 1 were unallowable because of billing errors and that 12 of 14 items with billing errors
were submitted by 1 SAU. The item from stratum 3 was submitted by this same SAU and also
contained a billing error.

The State agency stated that these billing errors represented outliers attributable to systemic
issues at the SAU. Therefore, the State agency stated that a 100-percent review of all claims that
the SAU submitted would be appropriate. The State agency concluded that including such a
high-dollar billing error in stratum 3, unrelated to whether another Medicaid-covered service was
provided, has an “inequitable and disproportionate impact on repayment due to the
extrapolation.”

Office of Inspector General Response

We disagree with the State agency’s assertion that we should have eliminated one item from
stratum 3 and moved it to stratum 1. We relied on a statistically valid stratified sample to
conduct our review; the purpose of stratification is to group like items to reduce variability and
result in a more accurate estimate. If we moved the item in question from stratum 3 to stratum 1,
the statistical sample would not be valid. In addition, it would be inappropriate to move the item
because it did not meet the selection criteria for stratum 1.

We also disagree that this item was an outlier, because we noted that the sample frame for
stratum 3 contained 220 items submitted by this SAU, 1 of which was randomly selected.

                                                9
Furthermore, a 100-percent review would not be feasible because of the large number of items
submitted by the SAU in question. Additionally, two other items submitted by different SAUs in
stratum 3 also had billing errors, which demonstrates that the error was not an outlier by one
SAU. Furthermore, the methodology that we used to select and evaluate the results of our
sample provided an unbiased extrapolation (estimate) of the Medicaid payments for school-based
transportation services made by New Hampshire. As stated in New York State Department of
Social Services, DAB No. 1358 (1992), “… sampling (and extrapolation from a sample) done in
accordance with scientifically accepted rules and conventions has a high degree of probability of
being close to the finding which would have resulted from individual consideration of numerous
cost items and, indeed, may be even more accurate, since clerical and other errors can reduce the
accuracy of a 100% review.”

Concerns With Individual Findings

State Agency Comments

With respect to 10 claims, the State agency disagreed with our draft report findings that its
claims for Federal reimbursement did not meet Federal and State requirements. With its
comments on our draft report, the State agency submitted documentation that it had not provided
during our fieldwork to support that the students had received Medicaid-covered services on the
transportation date. Specifically:

   •   For four items, the State agency maintained that the students received Medicaid-covered
       rehabilitative assistance services on the days that transportation services were provided.
       The State agency submitted IEPs for each student that described the medical conditions
       that required the assistance of a rehabilitative aide. The State agency also provided
       affidavits from the rehabilitative aide and other school staff declaring that the aide
       assisted the student on a daily basis.

   •   For four items, the State agency stated that the students received Medicaid-covered
       nursing, rehabilitative assistance, speech therapy, or mental health services on the days
       that transportation services were provided. The State agency provided IEPs, referrals,
       and transaction logs to support that the students received Medicaid-covered services on
       the dates of transportation.

   •   For one item, the State agency stated that the student received Medicaid-covered
       medication administration services on the day that transportation services were provided.
       The State agency submitted the student’s IEP and a drug administration log indicating
       that school staff administered medication to the student on the date in question. The State
       agency explained that New Hampshire Administrative Rule He-C 4001.15 allows
       properly trained staff to administer drugs to children in residential treatment programs.
       The staff person received the required 4 hours of training from a registered nurse.

   •   For one item, the State agency asserted that the student received multiple Medicaid-
       covered medical services on the days that transportation services were provided. The
       State agency submitted the student’s IEP and explained that the student required

                                               10
        occupational therapy, physical therapy, speech therapy, and nursing services on a regular
        basis. The State agency also provided a transaction log to support that the student
        received physical therapy services on one of the dates of transportation. In addition, the
        State agency stated that the student had significant medical needs that required constant
        attention. The State agency provided the student’s Health Care Plan and an affidavit
        from a licensed practical nurse declaring that she had to monitor the student’s medical
        conditions in the classroom on a daily basis and provide direct care as needed.

Office of Inspector General Response

We agree in part that the reimbursements claimed for 9 of the 10 items met Federal and State
requirements, but we disagree that the remaining item met the requirements. 6 Specifically:

    •   We agree that IEPs and affidavits submitted by the State agency for four items support
        that the students received Medicaid-covered rehabilitative assistance services on the days
        that transportation services were provided. The State agency documented that the
        students had intensive medical needs and required assistance with mobility, personal
        care, or behavioral management on each day that they attended school. Given the unique
        circumstances, we accepted the affidavits as adequate documentation that the medical
        services were furnished. We modified our report and adjusted our results to reflect these
        changes.

    •   We agree that the IEPs, referrals, and transaction logs submitted by the State agency for
        four items support that the students received Medicaid-covered nursing, rehabilitative
        assistance, speech therapy, or mental health services on the days that transportation
        services were provided. We modified our report and adjusted our results to reflect these
        changes.

    •   We disagree that the documentation submitted by the State agency supports that one
        student received another Medicaid-covered service on the date of transportation. The
        staff member who administered medication to the student was not a licensed practitioner
        of the healing arts; therefore, the administration of the medication was not a Medicaid-
        covered service. New Hampshire Administrative Rule He-M 1301.04 does indicate that
        the administration of medications is a covered service, but only if it is performed by a
        licensed registered nurse, a licensed practical nurse, or an advanced registered nurse
        practitioner.

    •   We agree that the IEP, transaction logs, and affidavits submitted by the State agency for
        one item support that the students received Medicaid-covered physical therapy and
        nursing services on the days that transportation services were provided. On one of the
        dates of transportation, a transaction log supported that the student received physical
        therapy services. On the remaining dates, the student’s Health Care Plan and an affidavit
        from a school nurse indicated that the student’s medical conditions required monitoring

6
 Two of the nine items had additional billing errors. Therefore, we adjusted the full amount of the disallowance for
seven of the nine items but only a portion of the disallowance for the two items with additional billing errors.

                                                        11
from the nurse on each school day. Given the unique circumstances, we accepted the
affidavit as adequate documentation that the medical services were furnished.




                                      12
APPENDIXES
                                                                                         Page 1 of 2


                APPENDIX A: SAMPLE DESIGN AND METHODOLOGY

POPULATION

The population consisted of Medicaid paid claims for school-based transportation services that
were claimed by the New Hampshire Department of Health and Human Services, Office of
Medicaid Business and Policy (State agency), for Federal reimbursement. The population was
limited to those claims that were paid during calendar years (CY) 2006 through 2009.

SAMPLING FRAME

The sampling frame consisted of 227,553 claim line items for school-based transportation
services paid to New Hampshire School Administrative Units (SAU) during CYs 2006 through
2009 for which the State agency claimed a total of $15,766,315 ($8,375,998 Federal share).

We excluded 47,594 line items for transportation services provided by the Manchester SAU and
paid by the State agency in CYs 2006 through 2008 because these services were part of our prior
review of Medicaid payments for school-based health services made to Manchester, New
Hampshire (A-01-10-00014). In addition, we excluded 14,667 line items that had a monthly net
paid amount of less than $5.

For line items that were billed for single dates of service, we performed a data match to identify
and eliminate transportation services that had another Medicaid-covered medical service on the
same day. These line items are eligible for Federal reimbursement. Accordingly, we excluded
394,648 line items for these services. For line items that were billed for multiple dates of service,
we could not perform a data match because we could not identify the specific dates on which
transportation was provided. Therefore, we did not exclude any line items billed for multiple
dates of services from the sampling frame.

SAMPLE UNIT

The sample unit was a claim line item for transportation services.

SAMPLE DESIGN

We used a stratified random sample. We stratified the sampling frame into three strata: (1) line
items with a paid amount of $15,000 or more, (2) line items billed for single dates of service with
no matching Medicaid-covered medical service on the same day, and (3) all line items billed for
multiple dates of service.
                                                                                      Page 2 of 2



                                     Number of       Dollar Value of    Federal Share
      Stratum    Description         Line Items      Line Items         of Line Items
      1          Line items with a
      (100%      paid amount of
      Review)    $15,000 or more     15              $290,504.62        $146,448.36
                 Line items billed
                 for single dates
      2
                 of service with
                 no service match    207,009         $10,462,585.90     $5,582,046.27
                 All line items
                 billed for
      3
                 multiple dates of
                 service             20,529          $5,013,224.96      $2,647,503.43
      Total                          227,553         $15,766,315.48     $8,375,998.06

SAMPLE SIZE

We selected all 15 line items from stratum 1. We selected 60 line items from stratum 2 and 40
line items from stratum 3, resulting in a total sample of 115 line items.

SOURCE OF THE RANDOM NUMBERS

We used the Office of Inspector General, Office of Audit Services (OAS), statistical software to
generate 60 random numbers for stratum 2 and 40 random numbers for stratum 3.

METHOD OF SELECTING SAMPLE ITEMS

We selected all 15 sample items for stratum 1. We consecutively numbered the sample items in
stratum 2 and stratum 3. After generating 60 random numbers for stratum 1 and 40 random
numbers for stratum 3, we selected the corresponding frame items.

ESTIMATION METHODOLOGY

We used the OAS statistical software to estimate the total amount and the Federal share of the
amount that the State agency improperly claimed for Medicaid payments for school-based
transportation services made to SAUs.
                    APPENDIX B: SAMPLE RESULTS AND ESTIMATES

                                Sample Results: Total Amounts

                                                                      No. of
                                                                    Line Items        Value of
                                                                      With          Unallowable
             Frame          Value of       Sample       Value of   Unallowable       Services in
Stratum        Size          Frame          Size        Sample       Services         Sample
   1            15            $290,504        15        $290,505        14            $266,841
   2         207,009        10,462,586        60           2,539        42                1,458
   3         20,529          5,013,225        40           9,856        22                4,028
 Total       227,553       $15,766,315       115        $302,900        78            $272,327


                            Sample Results: Federal Share Amounts

                                                                      No. of           Value of
                            Value of                    Value of    Line Items       Unallowable
                             Frame                       Sample       With            Services in
             Frame          (Federal       Sample       (Federal   Unallowable         Sample
Stratum        Size          Share)         Size         Share)      Services      (Federal Share)
   1            15           $146,448         15        $146,448        14              $133,420
   2         207,009        5,582,046         60           1,347        42                   770
   3         20,529          2,647,503        40           5,338        22                 2,207
 Total       227,553       $8,375,998        115        $153,133        78             $136,397



           Estimated Value of Improperly Claimed Federal Medicaid Reimbursement
                    (Limits Calculated for a 90-Percent Confidence Interval)

                                         Total Amounts             Federal Share

          Point estimate                   $7,364,913                $3,923,465
          Lower limit                       5,086,636                 2,695,809
          Upper limit                       9,643,190                 5,151,120
                              APPENDIX C: STATE AGENCY COMMENTS 

                                                                                                     Page 1 of 15

                                   ~tatt        of ~tfu         ~amps4irt 

                                  DEPARTMENT OF HEALTH AND HUMAN SERVICES 

                                      129 PLEASANT STREET, CONCORD, NH 03301-3857 

                                ~~FAX: 603-271-4912 TDDACCESS: 1-800-735-2964 

                                               New Number: 603-271-9200
NICHOLAS A. TOUMPAS
  COMMISSIONER
                                                                         July 2,2012



      Mr. Michael 1. Annstrong 

      Regional Inspector General for Audit Services 

      Department of Health and Human Services 

      Office of Inspector General 

      Office of Audit Services, Region 1 

      John F. Kennedy Federal Building 

      Boston, MA 02203 


      Re: Report Number A-Ol-ll-00008

      Dear Mr. Armstrong:

               I am writing in response to the Office of Inspector General (OIG) draft report reviewing statewide
      Medicaid payments for school-based transportation services for the four calendar years, 2006 through
      2009. Thank you for the opportunity to respond to the draft report. I have attached documentation
      relative to certain individual cases in response to several OIG preliminary findings. As discussed more
      fully below, we are finding that New Hampshire often properly claimed Medicaid payments for school­
      based transportation services. Our efforts continue and New Hampshire reserves the right to continue to
      respond to OIG and to supplement the record.

              Brief Response

              The New Hampshire Department of Health and Human Services (DHHS) respectfully concurs in
      part and disagrees in part with OIG's draft findings.

              OIG's statewide audit of New Hampshire's Medicaid to Schools (MTS) program follows an OIG
      audit of the Manchester school district, completed earlier this year. New Hampshire filed its response to
      the Manchester audit report (Report Number A-OI-I0-00014) with CMS on March 13,2012. As you are
      aware, the Manchester audit report brought to New Hampshire's attention and raised for the first time the
      condition that a Medicaid service is required on a particular day in order to properly bill Medicaid for
      transportation services. NH DHHS is already in the process of changing our administrative rules and
      amending our advice to the school districts to reflect that position.

               OIG used three strata in its review of MTS transportation. Strata one involved a review of large
      dollar claims from Jaffrey Rindge Coop District and another district. The issues in this stratum raised
      unique billing concerns. OIG did a 100% review of these claims and did not extrapolate them to the state
      wide MTS billings. OIG reviewed two other strata, did a review of a sample and extrapolated its
      questioned costs against the state strata. Due to the intensity of resources necessary to review OIG' s draft
      findings and the limited time frame to conduct a State review, it was necessary for the State to focus its
      review efforts on strata two and three. The State respectfully requests an opportunity to review Strata one
      claims with the two districts involved in the claims for that stratum, as it has not yet had time to even
      begin a review ofthe unique issues presented by those claims.
                                                                                              Page 2 of 15



 Mr. Michael J. Armstrong
 Page 2
 July 2,2012


         NH DHHS reviewed claims from strata two and three to the extent that it was able to do so.
During its review, NH DHHS found many instances in which another Medicaid covered service was
provided on the date of transportation, and has provided evidence of this in its response. Nevertheless,
due to the intensity of time and resources needed to review ~iG's draft findings, NH DHHS was not able
to complete as thorough a review as is necessary to respond adequately. Consequently, as of the date of
this response, NH DHHS continues to locate, receive, and review relevant documentation of services
questioned by OIG. Accordingly, NH DHHS respectfully reserves the right to supplement its response
with additional supportive documentation.

        In one instance, ~iG's sampling approach has lead to an unfair and incorrect result. OIG
included this claim in its strata three review because it was for an amount less than $15,000. This claim is
for a very large amount, $1,252.53, and when extrapolated against the entire State, may have a
dramatically disproportionate impact of up to one third of the recommended repayment. As discussed
more completely below, the State respectfully requests that this Jaffrey claim should be treated like the
other Jaffrey claims in strata one with a recommended straight repayment and not as an extrapolated
repayment against the entire State.

        Detailed Response

         OIG recently completed an audit of Medicaid payments for school-based services in New
Hampshire's largest school district, Manchester, for the calendar years 2006 through 2008. During the
audit, OIG identified an error - that New Hampshire did not always ensure that another Medicaid covered
service was provided on a day when transportation was billed to Medicaid. New Hampshire responded to
OIG's finding in its Manchester MTS audit, acknowledging that during the period audited, it had
interpreted CMS guidance in the SMDL dated May 1999 to authorize billing for specialized
transportation in this manner. ~iG's audit of Manchester MTS had raised this issue to the State for the
first time. In its response to the Manchester audit, NH DHHS stated it would review and revise its
guidance on this issue and, going forward, would require another Medicaid covered service be provided
on a date for which specialized transportation is billed to Medicaid. See OIG Report #A-O 1-1 07-00014
issued January 19,2012.

         OIG commended the State on its taking corrective action to revise its guidance, increasing its
training efforts and implementing a new MTS billing system. See OIG Manchester MTS Report #A-Ol­
 107-00014 at 13, and then proceeded to conduct an expanded statewide audit focused solely on the area
which the State had already commenced review and improvements after receiving ~iG's Manchester
MTS report. The current expanded audit has resulted in OIG draft report review of MTS payments for
transportation for calendar years 2006 through 2009, OIG Report #A-O 1-11 -00008. In its draft report on
the statewide audit of transportation for school-based Medicaid service, OIG has now recommended an
additional refund of $3,585,179 to the federal government, and that the State strengthen its oversight of
the New Hampshire Medicaid to Schools program for school-based transportation services. OIG Draft
Report #A-OI-II-00008 at page 7.

         NH DHHS remains committed to making necessary improvements to its MTS program but these
changes can only impact the program going forward. If the goal of OIG was to identify compliance
issues in New Hampshire's MTS program and to allow New Hampshire to correct the compliance issues,
the Manchester audit accomplished that goal. ~iG's conducted an expanded state wide review several
months after OIG completed a review of essentially the same time period as was covered in the
Manchester audit on a topic that has already been critiqued in the Manchester report. This does not further
                                                                                                        Page 3 of 15



 Mr. Michael J. Annstrong
 Page 3
 July 2,2012


~IG's mission to identify error and create greater efficiencies and economies in the Medicaid program.
The impact of the ~IG's returning to the same issue and the same audit period (plus one year) but in an
expanded state wide review is to punish financially the State, to seek the recovery of limited program
dollars from the Medicaid to School program and the disabled students it serves, and to discourage the
State from openly reviewing areas of concern with federal oversight authorities and acknowledging that
improvements are warranted.

         OIG's audit design resulted in the review of approximately 115 claims, which essentially
involved two separate audit approaches with different impacts on the State. Responding to the construct
of this audit, which consisted of a combination of a 100% review of two school districts (stratum 1) and a
representative sample of the rest of the State (stratums 2 & 3), presents several challenges to New
Hampshire. Significant challenges exist both in responding to the audit and in the equitable determination
of responsibility for repayment, if any, as between the State and the several school districts, particularly
for strata two and three claims.

       For example, some errors may be attributable to the State as districts followed incorrect State
guidance. Responsibility for other billing errors properly lies with the districts. OIG did not visit all
SAU's but extrapolated the error rate to the entire State, whether based on incorrect State guidance or
SAU billing error. The methodology may place the State in the position of seeking repayment from an
SAU that was not sampled in the audit. I

         Due to the intensity of resources necessary to review ~IG's draft findings, the State had to pick
which of the two audit areas to focus its review efforts. Given the potentially crippling affect of a multi
million dollar repayment arising from the extrapolation on the Medicaid program serving disabled
students, NH DHHS elected to use its limited resources in reviewing strata two and three claims. The
State respectfully requests an opportunity to conduct a separate review of strata one claims, as it has not
yet had time to begin a review of the unique issues presented by those claims.

         Although the State focused its efforts on a review of strata two and three, nevertheless, there was
not sufficient time to complete a detailed review even of these strata. This is due to the highly rigorous
efforts needed to locate student records, review content, identify likely other Medicaid covered services
and to do the necessary follow up work of demonstrating services provided and the credentials of those
who provided the services.

        The OIG statewide MTS audit encompassed four years and involved the detailed review of
student information from 34 school administrative units or districts (SAU's), including 115 claims and
107 individual students, from across the State. Several of the students were in out of district placements,
some of which are located outside New Hampshire.




I For stratum one, which involved 14 claims, each over $15,000, billed by two districts (12 claims from the Jaffrey
Rindge Coop School District and 2 claims from the now dismantled school district ofWiltonlMassenic), OIG did a
100% review of the claims. For questioned claims in this stratum, OIG did not extrapolate the results to the State.
Claims in stratum one appear to raise unique and distinct claims issues, which are properly addressed separately.
Strata two included transportation billed for single dates of service selected for review by OIG as there was no other
matching Medicaid covered services billed for the student on the same day. Stratum 3 included cases in which
transportation was billed for multiple dates of service. For strata two and three, OIG extrapolated any questioned
claims amounts against the sample frame for the four-year period for the entire state.
                                                                                                 Page 4 of 15



 Mr. Michael J. Armstrong
 Page 4
 July 2, 2012


         In many cases, the substantive information provided by the districts to OIG for its consideration
 consisted only of a form letter that simply stated, "it does not appear that [child] received a covered
 service in addition to transportation on [date]." DHHS has concerns that in many instances a cursory
 search and a form letter ended the inquiry and resulted in an erroneous preliminary finding.

         In numerous instances, the students' IEP's were not provided to OIG by the districts during its
review. NH DHHS could not simply accept at face value a statement by SAD's that it does not appear
that a child received another Medicaid covered service. Rather, NH DHHS was required to exercise due
diligence in making reasonable efforts to determine whether or not transportation was properly claimed
and other Medicaid covered services were provided on particular dates.

         Gathering information in these circumstances has proven to be a slow process. Some districts did
not appear sufficiently motivated to respond to OIG or NH DHHS's requests for information and
documentation, for various reasons, including that they did not appear to appreciate the very significant
financial impact of extrapolating a small claim amount against all state transportation claims for a four­
year period. Additionally, school vacations and the demands of end of school year IEP activity impacted
the availability of staff to respond to State inquiries. Our experience has been that some individual school
districts may not appreciate the significance of a single claim for transportation at a seemingly small
dollar amount. Some districts may not be sufficiently motivated to respond to our requests for
information and documentation, and may have not been sufficiently motivated to respond to OIG during
the audit, because they may have attributed the error to incorrect State guidance. It would appear that, as
a whole, the SAU's did not appreciate the potentially crippling impact of the threatened loss that $3.5
million would have to their ability to serve New Hampshire's disabled students.

        Further, in some instances, records for claims as much as seven years old were impacted by loss
due to the passage of time, movement of records, damage and various other circumstances. NH DHHS
was required to look for alternative sources of documentation at various locations to substantiate services
provided.

        In other cases, the responsible SAU's indicated that they could not locate any records indicating
that a Medicaid service had been provided. Follow up work by DHHS staff revealed that the child had
moved to another district since the audit period and the records had moved to another SAD or in some
instances to other states. For example, see claim #38.

         NH DHHS made numerous requests to districts, engaged in telephone discussions and performed
field visits. The effort yielded evidence of other Medicaid covered services in numerous instances. See
section below encaptioned "Other Medicaid Services Provided."

         Some cases selected for audit involved severely medically compromised children in out of district
placements. These children are enrolled in intensive programs that by their very nature included
allowable or billable Medicaid services each and every day they attend these programs. Rather than bill
for individual medical services, the out of district facilities bill an all-inclusive daily rate that includes a
built-in medical component for Medicaid covered rehabilitative, counseling and other services supplied
by those specialized placements. The students' services were required by the IEP and were provided by
the out of district placements. Yet, the school districts did not have the documentation indicating that a
Medicaid covered service had been provided. Therefore, NH DHHS had to work with the out of district
facility in order to document that a qualifying Medicaid service had, in fact, been delivered. The
discovery of such documentation was the result of a time consuming and intensive effort by DHHS staff
and included trips to Vermont and to Massachusetts.
                                                                                                  Page 5 of 15



    Mr. Michael J. Armstrong
    Page 5
    July 2,2012



         Additionally, in its review, NH Dlll-IS found a number of instances in which a billing error
occurred that was not related to whether there was another Medicaid covered service, such as instances in
which there was no school or a calculation error. These errors are not related to State guidance. NH
Dlll-IS has a MTS audit and review process that it continues to follow that identifies individual district
errors. NH DHHS follows audits with education and recovery as appropriate.

           Single Audit Claim From Jaffrey That Has Been Incorrectly Included In Strata Three

         orG's sample design consisted of three stratums. Stratum 1 included line items with a paid
amount of $15,000 or more. Stratum 2 included line items billed for single dates of service with no
matching Medicaid covered services on the same day. Stratum 3 included cases in which all line items
billed for multiple dates of service.

         Of the 14 cases that make up stratum 1, 12 are from Jaffrey and 2 are from Wilton2 • The stratum
I review was a 100% review that was not extrapolated. OrG's 100% review of Jaffrey makes sense for a
couple of reasons. First, Jaffrey billed the Medicaid to Schools program on a quarterly basis, which
necessarily results in larger line items. Second, the overwhelming portion of unallowable billing in
stratum 1 is the result of billing error and not the absence of a Medicaid covered service. Of the
$266,840.66 total unallowable as determined by OIG, only $2,842 was deemed to be the result of no
Medicaid covered service for the audit period. The errors identified by OrG in stratum 1 are outliers
when compared to the rest of the State. In fact, in the spreadsheet provided by OIG they state, "For all
dates of services, SAU could did [SIC] not provide any documentation to support the cost of the claimed
services. Based on review of other claims from the SAU, we determined risk of overpayment due to
billing error to be high."

        OIG observed in its review notes for the Jaffrey school district that billing errors occurred on all
service dates, often with billing for days the student was not present at school. Other errors include
overcharging for bus trips due to improper calculation based on the number of Medicaid students on the
bus or billing twice for a one-way trip. It is apparent that Jaffrey had significant and systemic billing
issues that had little or nothing to do with whether a Medicaid service was provided on a day that
Medicaid was billed for transportation services. Accordingly, we agree that a 100% review of Jaffrey's
Medicaid to Schools billing is an appropriate methodology.

         However, OIG's sample included one Jaffrey student who appears in stratum 1 and is also
included in stratum 3. The student, .     , appears as student #4 in stratum 1 and as student #92 in stratum
3. The total amount unallowable for the stratum 3 cases is $1,252.53, which is 100% attributable to
Jaffrey's billing error. OIG's description of the billing error is as follows, "Billing error on all 30 dates of
service." SAU only allocated $188 daily bus cost to 3 Medicaid students on bus instead of 9 total
students. Daily error was $62.64 claimed amount minus $20.89 allowable amount ($188/9 students)."




2No documentation was provided for Wilton to support the Medicaid claims. Documentation may have been lost
when Wilton and Mascenic split into two SAU's.
                                                                                              Page 6 of 15



 Mr. Michael J. Armstrong
 Page 6
 July 2, 2012


         Including such a high dollar billing error, that has nothing to do with whether there was another
 Medicaid service provided, has an inequitable and disproportionate impact on repayment due to the
 extrapolation. Student #92 should be eliminated from the sample or made part of stratum 1.

         Other Medicaid Services Provided

         Claim #20 R.G

           OIG has made a preliminary finding that transportation for R.G. for claim #20 was not allowable
 as it did not have evidence that another Medicaid covered service was performed on September 26,2008.

         The NH DHHS responds that R.G. did receive another Medicaid allowed service on September
 26, 2008, and thus transportation is properly allowable. In particular, R.G. received the services of 1: 1
 paraprofessional or rehabilitative assistant on September 26, 2008.

          As reflected in his IEP dated May 20, 2008, R.G. had significant academic, developmental,
functional and behavioral problems stemming from his ADD, depression, anxiety and low cognitive
abilities. IEP at page 2. He received consultation services, OT, psychological services, and worked with
1: 1 paraprofessional                 each day due to his low academic abilities, lack of           and
l i i l i l ioblems as            10 is IEP. IEP at pages 2, 13, 14. See Affidavits                 and


         Under He-M 1301.04(v)-(y) receiving the services of a 1:1 paraprofessional or rehabilitative
assistant is a Medicaid covered service. However, Medicaid was not billed for the rehabilitative services
R.G. received from                  be~ position was federally funded by an IDEA grant.
See Affidavits of                 and ~ue to Ms. _                       federally funded position, there
was no intent to                   the services she rendered. Therefore, no referral for the rehabilitative
assistance was required or acquired.

        R.G. 's IEP well documented his behavioral management needs. These needs were met each and
every day he attended school, including on September 26, 2008, as shown in                   Affidavit.
Her time slip from that week evidences that she was working with R.G. on                   10 question.
Therefore, a covered service was provided to R.G. on September 26,2008, and the transportation claim of
$8.27 from that day is allowable.

        Claim #21 T.D.

         OIG has made a preliminary finding that T.D. did not receive another Medicaid covered service
for the date January 22,2009. T.D. received medication administered by nursing staff at the _
_              ~ on January 22, 2009. Therefore, T.n. did receive a Medicaid covered service on the
date in question, and so the transportation services for January 22, 2009, are properly reimbursable.

        T.D. was a child with severe disabilities. He suffered from mental retardation and acute
emotional problems that required transportation, individual counseling services, direct instruction
special education teacher, nursing services to render medication and treatment at the
_         neuro-behavioral and autistic residential program five times a week per his
8 and 11.
                                                                                               Page 7 of 15



 Mr. Michael J. Annstrong
 Page 7
 July 2, 2012


        As part of his treatment at the                          T.D. received several medications while
at school. APRN_ _ adm' .                             Icatlons to T.D. on January 22,2009, as evidenced
by the attached ~RVC fonn at page 2. On January 22,2009, according to the .                        forni,
_             administered two different medications to T.D. Because there were initials written in the
boxes on the fonn rather than a "D" written in the boxes demonstrates that the medications were, in fact,
delivered to T.D. on the date in question. _           was properly licensed and qualified to administer
the medications as evidenced in the attached documentation.

       Under He-M 1301.04(g)-(i) receiving medical treatments from a                   nurse is a Medicaid
covered service. Therefore, the medicine T.D. received from APRN                      on January 22, 2009,
was a Medicaid covered service.

        Accordingly, the $33.80 for transportation services that OIG found unallowable should be
allowable because another Medicaid covered service was provided to T.D. on the day in question.

         Claim #38 J.D.

         OIG has made a preliminary finding that transportation for J.D. for claim #38 was not allowable
as it concluded based on a notation of "OTH" that J.D. was absent from school on March 5, 2008, and,
thus, transportation was not properly charged.

         J.D. was present in school on March 5, 2008, and did receive another Medicaid allowed service
on March 5, 2008, and thus transportation is properly allowable. In particular, J.D. received the services
of 1: 1 paraprofessional or rehabilitative assistant on March 5, 2008. J.D. initially resided in the .
l1li   School District. Subsequently, he moved to _         and his school records were transferred to that
district. Thus, at the time of OIGs information request, _                  School District did not have
documentation of other Medicaid covered services.

        As reflected in his lEP for the period 9112/07 through 6/20/08, J.D. was coded as having an
emotional disability and was also other health impaired. IEP at 1. He required OT consultation, a shared
program aide 5 times per week, and speech therapy twice per week. lEP at page 12. The IEP further
noted that his behaviors impeded the learning of others. lEP at 11. J.D. could be very distracted by
outside stimulus, get overwhelmed and refuse to work. IEP at 2. He was immature and needed help in
social situations. IEP at 2. A licensed health practitioner,                         a licensed speech
language pathologist, recommended that J.D. received the services            a paraprofessional in the
nonacademic areas on June 11, 2007. A copy of the referral is attached along with copies of Ms.
_          credentials.

         For the date at issue, March 5,2008, OIG incorrectly concluded that J.D. was absent from school
and the transportation billing was in error, as the code "OTH" was recorded for J.D. for that date. "OTH
'other' = Absent" was handwritten by an unknown person on a printout of that attendance record. OTH
or "other" does not mean absent, however. Rather, the code OTH means a "school activity" outside the
classroom. According to school district personnel, the attendance status "oth" indicates that J.D. was
using services in the advance program, because he was having emotional difficulties that day and was
working with his case manager/counselor instead of going to class. _                School district database
analyst, Mr. _              has provided a list of_        District's attendance codes with the meanings of
the various attendance codes, which he developed in conjunction with school administration. An
Affidavit will be provided from Mr. _         An actual absence from the school would have been reflected
                                                                                                 Page 8 of 15



 Mr. Michael J. Armstrong
 Page 8
 July 2,2012


by a different code, such as "ABS" for excused absent or "UNV" for an unverified absence. Further
evidence of J.D.'s presence at school and his receiving 1: 1 rehabilitative aide services is the signed log by
_             rehabilitative aide, which log also bears the signature of the guidance counselor. Ms. ~
was qualified to provide rehabilitative assistant services. See letter of Principal _                    dated
October 4, 2011, stating that Ms. ~ is properly credentialed to work as a paraprofessional and has
many years of experience working with the EH or emotionally handicapped, in additional to possessing
other relevant experience.

         As a Medicaid covered service was provided to J.D. on March 5, 2008, the transportation claim of
 $156 for that day is allowable.

        Claim #39 T .B.

          OIG has made a preliminary fmding that transportation for T.B. for claim #39 was not allowable
as it did not have evidence that another Medicaid allowed service was on November 15,2006.

        T.B. did receive another Medicaid allowed services on November 15, 2006, and, thus,
transportation is properly allowable. In particular, T.B. received the services of medication
administration on November 15,2006.

         As reflected in his _         School IEP for the period of February 17, 2006, through February
16, 2007, T.B. was a 13-year-old boy who had cognitive impairments. Due to the extreme nature of his
educational disabilities and significant behavioral issues, _      needed to be placed in an out of district
special educational facility. IEP at page 1. He required constant staff supervision in both educational and
community settings to ensure the safety of himself and others. IEP at 2. He received both group and
individual counseling for an hour per week. IEP at 3. One of his goals was to be referred to his local
mental health agency and to continue his connection with the area agency [for developmental disabilities].
IEP at 14. His IEP specified he was on a regimen of Seroquel and Clonidine for mood stabilization. IEP
at 5.

          On November 15,2006, T.B. received a Medicaid covered service of medication administration at
the _          School for          25 mg x2 at noon and Clonidine .05 mg 2 x daily at 11 :00 and at 1:45,
as administered by                  A medication log including the date November 15, 2006 for T.B. lists
the two drugs and bears              • in the space to indicate they were provided. The back of the log
has the signature and initials of the staff who administered medications with Ms.          signature and
 initials. See attached _                documentation recognizing that                   completed the
requirements of medication training for 9/05, as witnessed by _                     state regulations for
child residential treatment programs, which the _              School is, a properly trained staff may
administer medications to youth in the programs. He-C 4000.15 (r ). Training in medication safety and
administration, as required in (r) above shall consist of a minimum of 4 hours of training, exclusive of
testing or competency evaluation, and shall: (1) Be delivered by a physician, advanced registered nurse
practitioner (ARNP), RN, or LPN practicing under the direction of an ARNP, RN or physician, or by
another qualified               He-C 4000.15 (s) (1). Here, _               completed training under .
_         RN. As                 was authorized under state law to administer medications to T.B., this
medication                 was a Medicaid covered service. See attached regulation.

       Accordingly, as T.B. received another Medicaid covered service on November 15, 2006,
transportation for that date is properly reimbursable.
                                                                                                Page 9 of 15



 Mr. Michael J. Annstrong
 Page 9
 July 2,2012


         Claim #42 D.M.

         OIG has made a preliminary finding that transportation for D.M. was not allowable as it did not
 have evidence that another Medicaid allowed service was provided on September 15, 2008.

          The NH DHHS responds that D.M. did receive another Medicaid allowed services on September
 15, 2008 and thus transpo~erly allowable. In particular, he received speech therapy from
~sistant, ~ who was supervised by licensed speech language pathologist,
~ SLP.                         Speech and language assistance was required by D.M.'s IEP dated May 28,
2008. Further, there was a recommendation by a licensed health practitioner,                      SLP, for
D.M. to receive speech therapy services dated September 2006. The                                  .M. "is a
four year old boy presenting with moderate to severe phonological impainnent in the iesence    i i of what
appears to be many age-appropriate language skills as revealed in a language sample.              can be as
little as 10% intelligible to an unfamiliar listener if the topic is not known." Recommendations: '_
should receive speech therapy, with work focused ~ speech intelligibility and listening
comprehension." Speech and Language Evaluation by ~ SLP, dated September 2006 at page
2. Accordingly, transportation claim #42 for $5.18 for D.M. for September 15, 2008 is properly
reimbursable. See IEP for period May 29, 2008 throug~ Team minutes dated May 1, 2008
further documenting speech needs, and attendance of ~ SLP; Speech Evaluation by SLP
               with recommendation for speech                services for D.M. dated September 2006; Speech
              dated July 31,2008 signed                        SLA documenting services to D.M. on Ju 15
2008; Letter dated June 14,2012 from                             Services Director stating SLP
supervised                                          to D.M.; and copies of credentials for
SLP and

        Claim #54 J.D.

        OIG has made a preliminary finding that J.D. did not receive another Medicaid covered service
on October 18, 2005. J.D. had a diagnosis of autism and mental retardation. His IEP stated '. . ­
currently attends an out-of-district special education school due to the extreme nature of his disabilities."
IEP at page 2. He had a number of behavioral challenges, including aggression at times, running out of
the room and attempting to leave the building, and a poor sense of personal boundaries. He was on
medications for stabilization and mood control. IEP at page 4. He was not able to participate in any
regular education programming, nor was it recommended that it be attempted at that time. Among the
services required by J.D.'s IEP were one hour of individual counseling and one hour of group counseling
each week in order to meet his potential. IEP at page 3. See also IEP annual goal 4.0, requiring individual
counseling, group counseling and therapeutic crisis intervention.

         On October 18, 2005, J.D. received group therapy from                          who was properly
credentialed. See Attached Counseling Noted dated October 18 2005 by                   for J.D.
_            was properly credentialed as a counselor. Mr.           earned         s Degree in counseling
and Community Psychology in 1983 from                                               Further, his experience
documented on the attached resume                                                    .07 School Guidance
Counselor and He-M 1301 requirements. Ed 507.07 School Guidance Counselor is referenced in
Provider Qualifications under mental health in He-M 1301. Ed 507.07 (a)(2)(b), states: Experience in
comparable positions in school guidance counseling or other professions closely related to school
~Ulual.l"" "'v ......,,~ ....F.. In 2004, Mr. ' " had worked for four years at the Mental Health Center of
                              as a child and adolescent therapist.
                                                                                             Page 10 of 15



 Mr. Michael J. Armstrong
 Page 10
 July 2,2012


         As J.D. received another Medicaid covered service of group counseling on October 18, 2005,
 transportation for that date is properly allowable.

         Claim #64 A.S.

         OIG has made a preliminary finding that transportation for A.S. for was not allowable as it did
 not have evidence that another Medicaid allowed service was on September 16,2005.

          A.S. did receive another Medicaid allowed services on September 16, 2005 and thus
 transportation is properly allowable. In particular, A.S. received the services of a 1: 1 rehabilitative
 assistant on September 16,2005.

         As reflected in his IEP dated June 9, 2005, A.S. was an 11 year old boy with significant
development delays due to Downs Syndrome, Wolf-Parkinson-White Syndrome, ventricular septal defect,
agenesis of the corpus collosum, autism, asthma and frequent ear infections. IEP at page 3. He received
speech therapy, occupational therapy, and worked with a 1: 1 paraprofessional each day. IEP at page 3.
A.S. was essentially nonverbal, his one spoken word being mama, though he knew several signed words.
IEP at page 6. A.S. required supervision while eating for safety purposes, IEP at 7, and needed help with
special eating utensils. IEP at 7. His mouthing objects in the classroom was a safety concern. IEP at 7.
He had an oral motor program to increase his muscle tone and to improve his awareness and endurance of
eating. IEP at 7. Around the fall of 2004, these oral sensitivity issues had lead to A.S. pulling the teeth
out of his own mouth, roots and all. See Meeting Minutes dated January 28, 2005. See also attached IEP
dated 6/9/05 requiring 1: 1 services. A.S. was diapered and needed personal care for changing of diapers
and cleaning. A toileting program was developed between school and home. See attachment to IEP.
Given his health conditions, A.S. also presented a number of behavioral challenges, including throwing
objects and running away if not closely monitored by his 1: 1 and other staff.

        Due to the severity of these needs, A.S. required a 1:1 rehabilitative~his IEP.
A referral or recommendation by licensed hea~er, SLP ~ .                                            l1li
_             ordered 1:1 services for A.S. Ms. ~ is credentialed as a speech language
pathologist. See attached documents.

        From Se~05 to sometime in November 2005, A.S. was a student in a special education
classroom at the ~ School in _ _. In November 2005, he was placed in an out of district
placement that was more equipped to meet his extensive needs. In      2005 and in particular on
September 16, 2005, A.S. had the services of 1:1 rehabilitative aide,            Mr. _
worked with A.~cal care, monitoring and behavioral management                part of each day.
See Affidavit of. . . . . . . .

         Mr. _          states that he assisted with A.S.'s diapering and cleaning needs, supervised and
assisted with eating, ensured that A.S. did not place nonfood items in his mouth, prevented A.S. from
suddenly running away when           traveled outside the classroom, worked with A.S. on communication
through his picture board. Mr.                provided behavior ~. through a reward
system. See Affidavit of                       Assistant Principal ~ states that _
_          was an                 and long time rehabilitative aid and was assigned to work as a 1: 1
rehabilitative assistant with A.S. in September 2005. He observes that A.S. presented challenges.
Sometimes, the disabled youth would smear feces on others, he had toileting issues, and he would run
away if not closely supervised. Mr.              attendance record is attached documenting his attendance
on September 16, 2008. See Affidavit                               Accordingly, transportation claim #64
                                                                                               Page 11 of 15



 Mr. Michael J. Annstrong
 Page 11
 July 2,2012


for $27.89 for A.S. for September 16, 2005 is properly reimbursable. See Attached IEP for August 30,
2005 through June 30, 2006; Team Minutes for January 28, 2005, Mary 2, 2005, May 20, 2005 and June
9,2005; Recommendation for Rehabilitative Assistance dated            16,2004 by licensed health care
practitioner                       SLP; credentials for Ms.              Affidavit of 1: I rehabilitative
assistant                                  of                        with documentation of _
                         eptember 16,2005.

         Claim #76 M.B.

         OIG has made a preliminary finding that transportation for M.B. for claim #76 was not allowable
as it did not have evidence that another Medicaid covered service was performed on the following seven
dates in October 2007 - October 2, 3, 5, 10, 17,24, and 30, 2007.

         The NH DHHS responds that M.B. did receive another Medicaid allowed service of a 1: I
rehabilitative assistant on October 2, 3, 5, 10, 17, 24, and 30, 2007. Thus, transportation for these dates is
properly allowable.

         As reflected in the IEP dated June 2007, M.B. was born with Smith-Magenis syndrome. IEP at
page 2. She had a complex medical history, including Smith-Magenis syndrome, Pierre Robin sequence
with a status post cleft palate repair, status post tracheotomy tube, decannulation on ~
developmental delays and speech-language delays. See Medical note dated 8/8/2007 from ~
~. She experienced a number of other and related health conditions, including
~ophageal reflux disease, and hypothyroidism. IEP for 6/04/07 through 6/04/08
at page 2. She needed medical assistance to improve her functional mobility skills, and large motor skills,
develop her play skills, which were delayed, and increase her communication skills, both expressive and
receptive. IEP at page 2. Given these issues, _           required an adult to be with her at all times for all
activities of daily living and for safety issues. IEP at 2 and 3. In addition to a 1: 1 rehabilitative aide,
M.B. needed speech, OT, PT, nursing services and staff consultations in OT, PT, speech and behavior.
M.B. had a G tube through which she received most of her nutritional intake, and which required careful
monitoring by the 1: 1 aide lest M.B. should pull it out. See IEP at 4 and Affidavit o~

         Accordingly, a licensed health practitioner wrote a referral/recommendation that M.B. receive the
services of a I: 1 rehabilitative aide. See referral for rehabilitative aide dated June 5, 2007 by      l1li
l1li    licensed PT and M.B.'s special education case manager. Also attached is Ms. _              licensure
information. Ms. _                was M.B.'s 1: 1 rehabilitative aide every day and all day during the audit
dates in October 2007, on school days that M.B. was in attendance.

         Ms. _          has provided an affidavit detailing the mobility, communication, behavioral
management, nutrition, bladder and bowel care, and other personal care that she provided to M.B. during
this time period as her 1: 1 aide. She observes that M.B. presented a number of safety concerns, including
that M.B. would try to pull out her G tube, had a reduced sense of pain, and had a distorted sense of depth
perception. Because of the G tube, Ms. _           changed M.B's diapers in the nurse's office, so that two
people would be present to protect M.B. 's G tube from being pulled out. M.B. also needed help from her
1: I aide with gross motor activities, such as forming a grasp on her crayon. Together, they worked on
learning how to navigate stairs, which were difficult due M.B.'s depth perception issues. M.B . also
needed help with eating. M.B. needed help in forming relationships with her peers. When she became
upset, the aide would guide her behavior and would calm her down as necessary. Ms.                      was
supervised in her care to M.B. by a licensed OT,                    and a licensed PT,                  See
Affidavit o~ See attached credentials.
                                                                                              Page 12 of 15



 Mr. Michael J. Armstrong
 Page 12
 July 2,2012


          As it has been demonstrated that M.B. received another Medicaid covered service of 1: 1
 rehabilitative assistance on the audit dates in October 2007, transportation claims for those days are
 properly allowable.

         Claim #93 A.H.

         OIG has made a preliminary finding that A.H. did not receive another Medicaid covered service
for school dates during the period April 1, 2008 through April 30, 2008. Because he received the services
of a 1: 1 aide for the dates, as described more fully below, the transportation services for those dates are
properly reimbursable.

         A.H. was a child with many significant needs. He was diagnosed with bipolar affective disorder,
attention deficit and hyperactivity disorder, not o~d, oppositional defiant disorder, and
pervasive development disorder. See Affidavit of ~ who is the case manger and special
education coordinator for A.H. at SAU #29 and documents attached to and referenced in Mr. _
Affidavit.

         Among the services required for A.H. as specified by his IEP were the daily services of a 1: 1
rehabilitative aide. Prior to the dates of service at issue, a recommendation was made by a licensed health
practitioner,                RN, that A.H. receive the services of a rehabilitation assistant for nonacademic
purposes. A          IS a copy of Ms. _         nurse license status which shows that she was an RN in 2002
through the present.

         Due to the severity and continual nature of A.H.' s behaviors, he needed the constant attention of a
I: 1 rehabilitative assistant while he remained in the school district. Nevertheless, he would scream,
physically lash out at whomever was in his way, and at times run from the building and require police
intervention. See Affidavit                       and attached documentation. The increasing severity of
A.H. 's behaviors led to an out                           at _              School in _       , where A.H.
continued to need and receive the daily services of 1: 1 rehabilitative aide.

        In the time leading up to the decision to utilized an out of district placement to meet the extreme
needs of this then eight and half year old child, one staff stated, "we have had a drastic increase in unsafe
behavior (swearing, name calling of staff and students, threatening to kill staff, tossing over of desks,
ripping papers, accusing adults of choking, hitting and             . him kic~ent, pulling
the hair of his tutor and biting his tutor.)"      Email of                  to ~ and others
dated October 23,2007, affixed to Affidavit

        A.H. began his out of district placement at _          School on January 2, 2008 and continued
to receive services there until some time in 2011. He received the services of 1: 1 rehabilitative aide,
                 for much of that time, January 2008 through June 2010. An~cular, during April
                   provided behavioral management, guidance and support for ~

        _          had severe behavioral and emotional issues and required constant vigilance and
attention. His rehabilitative aide accompanied him at all times throughout the school, including when
leaving his individualized classroom. ~ at the bus each morning and escorted him back to
the bus at the end of the school day. ~aced in a classroom of one, with all non essential
materials and furniture, including the chairs, removed from it due to _         explosive behaviors, such
as over turning and throwing chairs at staff, shoving all books off shelves, tearing up papers, and using
pens or pencils as threatening weapons. When walking through the corridor with _          during the
                                                                                              Page 13 of 15



 Mr. Michael J. Armstrong
 Page 13
 July 2,2012




                                       at_
time period at issue,~ needed to prevent AH. from grabbing and breaking objects. He also had
to be watchful that ~ not put non-food items in his mouth. _                          1:1 aide needed to be
aware of his charge's whereabouts and his conduct at all times, including time spent in the bathroom. On
one occasion shortly after his arrival                   School, after AH. spent a somewhat longer time in
the bathroom, his aide inquired further and discovered him naked, with a toilet plunger stuck to the wall,
rolls of tissue unraveled on the floor, the sink full of water and overflowing, and excrement on the toilet
seat. See Affidavit o~

        Mr. _        worked with _          to help _         to learn to de-escalate before an episode of
explosive rage occurred. Given AH.' s oppositional defiant disorder, the rehabilitative aide needed to use
techniques that avoided traditional displays of authority in the educational setting and that would build
trust. See Affidavit o~

                            full time job was to be
 of April 7, 2008, which was a personal day off for the aide,
 and worked directly with AH. for all days that the youth                         . See attached
_         attendance records for April 2008. On the one date                       was not present, .,n{,th,~r
qualified I: 1 aide assisted _         throughout the day, as this was necessary to meet AH.' s intensive
needs. Further documentation of I: 1 services being provided is evidenced by the _                   School
 invoices dated 112512008 and 4/07/2008, which have itemized statements regarding the separate charge
for AH.'s l: 1 rehabilitative aide. See Affidavit                           Executive Director of _
"      School.

        As A H. had another Medicaid covered service of a l: 1 rehabilitative aide for the dates            III
question, his specialized transportation was properly reimbursable.

        Student #94 J.W.

        OIG has made a preliminary finding that J.W. did not receive another Medicaid covered service
for the school dates during the period November 26, 2007 through November 30, 2007. Specifically,
OIG's preliminary finding is that no Medicaid covered service was provided to J.W. on November 26,
2007, November 28, 2007 and November 30,2007. Because J.W. received Medicaid covered services on
the dates in question, as described more fully below, the transportation services for those dates are
properly reimbursable.

         J.W. was a child with many significant medical needs. He was diagnosed with grade II
retinopathy of pre-maturity (legally blind), hypotonia, seizure disorder, communication and intellectual
impairment. J.W. had a significant medical history including intraventricular hemorrhage, brain cyst,
gastronomy tube placement (not used at school), VP shunt placement and revision, skin breakdown and
~was also on medications. J.W. w~ out of district at
~,                                               School in " ",                     III
significant needs.

        J.W. worked on his hygiene related ADL's at school, but needed significant assistance. He was
able to bring a washcloth to his mouth, but did not wash his entire face. He was able to hold his
toothbrush in his mouth and move it around. J.W. was able to wipe his hands and place them under
running water. During the 2007-2008 school year, he was sitting on the toilet 3 -4 times a day and
frequently remained dry. His IEP goal was to remain dry 60 -70 % of the time.
                                                                                                    Page 14 of 15



 Mr. Michael J. Armstrong
 Page 14
 July 2,2012


          J.W. was able to self-feed with a regular spoon but would sometimes use a curved, weighted
 spoon to decrease dipping vs. scooping with the spoon. He would also use a scoop plate with suction to
 attach to the table. J.W. had to be observed and cued during eating to avoid pocketing food in his cheeks
 and engaging in self-stimulatory behaviors such as dropping his food to hear the sound of it hitting the
 floor.

        In the classroom, l .W. displayed a number of inappropriate behaviors including temper tantrums,
cursing, spitting, biting his hand, throwing items or dropping them on the floor. J.W. engaged in self­
stimulatory behaviors such as ear and nose tapping and singing. With cues, J.W. would stop self­
stimulatory behaviors, but then would frequently re-start the behavior in a few seconds to minutes.

        J.W. received OT, PT, Speech and Language Therapy, consultation from a teacher ofthe visually
impaired and community education. He received individual OT once a week and group OT every day, PT
3 times a week and Speech 2 times a week. On November 26,2007 J.W. received an individual Physical
Therapy sessio~, a licensed Physical Therapist. See copy of the transaction loge and
licenseofMs. _ _

        J.W. also received significant assistance from a classroom-based nurse who was responsible to
meet his ADL and medical needs including constant monitoring and frequent intervention. See Affidavit
0~ .3

        J.W. had severe medical needs that required constant vigilance and attention. J.W. had a Health
Care Plan in place that required daily monitoring by the classroom nurse. The classroom nurse was
responsible to observe J.W. for nausea, vomiting, lethargy, headache, seizures and change in level of
consciousness due to possible shunt malfunction. The nurse also had to observe skin breakdown on
coccyx, spine and feet due to immobility and incontinence. See Health Care Plan of J.W. Under He-M
1301.04(h) the services provided to J.W. on a daily basis are Medicaid covered services.

        Of the total amount of$539 .00 that OIG found unallowable, $125.60 was due to a billing error on
the part of the school district. The remainder in the amount of $413.40 should be allowable as another
Medicaid covered service was provided on the days in question.

         Improvements to Medicaid to School Billing Process

         As stated in its response to OIG's review of the Manchester Medicaid to School program, NH
DHHS recognizes that transportation should only be billed on a date when another Medicaid covered
service is provided. During the period audited, NH DHHS had interpreted CMS guidance in the SMDL
dated May 1999 to authorize billing for specialized transportation without such other service. OIG's audit
of Manchester MTS, which report was issued only several months ago, raised this issue to the State for
the first time. NH DHHS recognized that it was appropriate that it review and revise its guidance to
districts on this issue. Going forward, NH DHHS will require another Medicaid covered service be
provided on a date for which specialized transportation is billed to Medicaid.




3 We have submitted a signed Affidavit that has not been notarized. A notarized copy ofthe Affidavit will be
submitted subsequently.                                                                        .
                                                                                                     Page 15 of 15



Mr. Michael J. Armstrong
Page 15
July 2, 2012


         OIG has also raised unique concerns about Jaffrey school district's billings contained in stratum
one, for which NH DHHS will do a closer review. Stratum one claims also involved two claims from a
second district that had been dissolved and which stated that it could not locate records from the dissolved
entity. NH DHHS will seek further information about these two claims from the relevant organizations.
Finally, OIG identified individual instances of billing related to errors in billing, including an occasional
instance in which student was absent and did not receive the billed service. With respect to individual
instances of billing errors, NH DHHS has and will continue to engage in an ongoing audit review and
education process regarding MTS billings with school districts.

         As stated in the recently concluded Manchester MTS audit, an improved electronic billing system
has been, and is continuing to be, developed by certain of the school districts' billing intermediaries with
the engagement of NH DHHS. This improved system will provide for electronic recordation of services,
certain provider logs, certain provider criteria and electronic billing. As a result, NH DHHS anticipates
that it will have an enhanced ability to perform utilization and review of MTS services because we will
have direct access to these billing systems and have the ability to conduct some audit functions remotely.
Additionally, NH DHHS anticipates that the electronic billing process will also lead to a decrease in
billing errors due to single entry of data and the existence of built in billing edits.

         Thank you for the opportunity to respond. If you have questions, please feel free to contact Mary
Castelli at 603-271-9385.

                                                                       Sincerely,


                                                                     W'll
                                                                       Nicholas A. Toumpas
                                                                       Commissioner




cc: 	 Nancy Rollins, Associate Commissioner, NH DHHS
      Mary Castelli, Senior Division Director, NH DHHS
      Stephen Mosher, Controller, NH DHHS
      Matthew Ertas, Chief, Bureau of Developmental Services, NH DHHS




        The Department ofHealth and Human Services'Mission is to join communities and families in providing
                          opportunities for citizens to achieve health and independence.
